                ` 

                 

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Great Lakes National Program
                     Should Improve Internal
                     Controls to Ensure Effective
                     Legacy Act Operations
                     Report No. 12-P-0407         April 9, 2012




Scan this code to
learn more about
the EPA OIG.
Report Contributors:                               Janet Kasper
                                                   Michael Petscavage
                                                   Wendy Swan
                                                   Nicole Pilate
                                                   Andres Calderon
                                                   Les Partridge




Abbreviations

CFC           Cincinnati Finance Center
EPA           U.S. Environmental Protection Agency
FAR           Federal Acquisition Regulation
FY            Fiscal year
GAO           U.S. Government Accountability Office
GLLA          Great Lakes Legacy Act of 2002
GLNPO         Great Lakes National Program Office
OIG           Office of Inspector General
OMB           Office of Management and Budget
RMDS          Resources Management Directives System
WAM           Work assignment manager


Cover photo: Equipment cleaning sediment at Kinnickinnic River site, Wisconsin. (EPA photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                12-P-0407
                                                                                                            April 9, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Great Lakes National Program Should
We conducted this audit to
                                    Improve Internal Controls to Ensure
determine whether the U.S.          Effective Legacy Act Operations
Environmental Protection
Agency (EPA) has adequate           What We Found
controls over various financial
aspects of the Great Lakes          GLLA program funding has increased five-fold over the last 7 years; however,
Legacy Act of 2002 (GLLA)           the program has not established needed internal controls to ensure effective
funding and payments, and to        operations. For example, while GLLA project agreements contain environmental
determine whether project           goals that tie to EPA’s strategic plan:
agreements contain goals that
tie to the Agency’s strategic             GLNPO is not timely forwarding project agreements to the EPA Finance
plan, hold parties accountable,            Center.
and ensure that nonfederal               EPA is not tracking and recording actual in-kind contributions.
sponsors meet their obligations.
                                         GLLA project agreements do not always include exact due dates and
                                           amounts for payments from nonfederal sponsors.
Background
                                         GLNPO has not been performing final accounting timely and does not
Under GLLA, the Great Lakes                keep adequate documentation of the reviews.
National Program Office                 	 GLNPO does not verify a nonfederal sponsor’s financial capability or
(GLNPO) performs sediment                  whether the nonfederal sponsor maintains an adequate accounting
remediation using partnerships             system prior to entering into a cost-sharing agreement.
with nonfederal sponsors to
accomplish the work. The            Because of limited staffing at the beginning of the program, GLNPO’s initial
nonfederal sponsor is required      strategy was to focus on hiring essential technical staff (engineers and scientists)
to provide a minimum of             and leveraging the resources of other offices to help administer the program.
35 percent of the effort in cash    The program has grown in terms of resources and staffing, but the focus on
or in-kind contributions to the     programmatic over financial activities negatively affected GLNPO’s
project.                            development of internal controls and led to many of the findings in this report.
                                    Without adequate internal controls, funds owed from nonfederal sponsors may
                                    not be collected timely, costs invoiced on GLLA projects may not be reasonable
                                    and allowable, and nonfederal sponsors with whom GLNPO enters into project
                                    agreements may not be able to meet their commitments.

                                    What We Recommend
For further information, contact
our Office of Congressional and     We recommend that EPA develop and implement policies and procedures for
Public Affairs at (202) 566-2391.   GLNPO that address the establishment of accounts receivable, recording of
                                    in-kind contributions, completion of final accounting, and reviews of the
The full report is at:
www.epa.gov/oig/reports/2012/       financial capability of nonfederal sponsors. EPA took action to address most of
20120409-12-P-0407.pdf              the recommendations and provided an action plan to address the remaining
                                    recommendation.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                             April 9, 2012

MEMORANDUM

SUBJECT:	 Great Lakes National Program Should Improve Internal Controls to
          Ensure Effective Legacy Act Operations
          Report No. 12-P-0407


FROM:	         Arthur A. Elkins, Jr.

TO:	           Susan Hedman
               Regional Administrator, Region 5

               Barbara J. Bennett        

               Chief Financial Officer 



This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency. This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends.

The Region 5 and Great Lakes National Program Office staff are to be commended for the
prompt action that was taken to address the findings and recommendations as the issues were
identified during the audit.

Action Required

In responding to the draft report, the Agency provided a corrective action plan for addressing the
recommendations with milestone dates. Therefore, a response to the final report is not required.
The Agency should track corrective actions not implemented in the Management Audit Tracking
System. We have no objections to the further release of this report to the public. This report will
be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or
Janet Kasper, Director for Contracts and Assistance Agreement Audits, at (312) 866-3059
or kasper.janet@epa.gov.
Great Lakes National Program Should Improve                                                                                  12-P-0407
Internal Controls to Ensure Effective Legacy Act Operations


                                   Table of Contents 

Chapters
   1	    Introduction ........................................................................................................      1


                 Purpose .......................................................................................................    1     

                 Background .................................................................................................       1     

                 Noteworthy Achievements ...........................................................................                3     

                 Scope and Methodology ..............................................................................               3     


   2	    EPA Can Improve Internal Controls Over 

         Great Lakes Legacy Act Payments...................................................................                         6


                 GLNPO Did Not Timely Forward Project Agreements.................................                                   6

                 Project Officers Do Not Document Contractor Invoice Reviews..................                                      8

                 EPA Does Not Record or Track GLLA In-Kind Contributions ......................                                     9

                 Recommendations ......................................................................................            11 

                 Agency Response and OIG Evaluation .......................................................                        11 


   3	    Project Agreements Can Be Improved to Increase Accountability ...............                                             12 


                 GLLA Projects Align With EPA Strategic Plan Goals ..................................                              12 

                 Project Agreements Are Missing Payment Dates........................................                              12 

                 GLNPO Is Not Receiving Required Progress Reports ................................                                 13 

                 Recommendation ........................................................................................           14 

                 Agency Response and OIG Evaluation .......................................................                        14 


   4	    GLNPO Has Improved Contract Cost Controls ...............................................                                 15 


                 Fixed-Price Contracts Help Programs Control Costs and 

                     Perform Efficiently ....................................................................................      15 

                 GLNPO Is Increasing Competition and Fixed-Price Contracting .................                                     16 

                 Recommendation ........................................................................................           16     

                 Agency Response and OIG Evaluation .......................................................                        16 


   5	    EPA Should Develop Internal Controls to Better Ensure Its 

         Nonfederal Sponsors Meet Their Obligations .................................................                              17


                 Internal Controls Are Required ....................................................................               17 

                 GLNPO Should Improve Final Accounting ..................................................                          17 

                 GLNPO Is Not Verifying Financial Capability or 

                     Accounting System Adequacy ................................................................                   18 

                 Lack of Policies and Procedures Leave GLNPO Vulnerable.......................                                     19 

                 Recommendations ......................................................................................            20 

                 Agency Response and OIG Evaluation ......................................................                         20 


   Status of Recommendations and Potential Monetary Benefits..............................                                         21 




                                                            continued
Great Lakes National Program Should Improve                                                                                 12-P-0407
Internal Controls to Ensure Effective Legacy Act Operations



Appendices
   A     Agency Response ..............................................................................................           22 


   B     Distribution .........................................................................................................   24

                                  Chapter 1

                                  Introduction
Purpose
            The U.S. Environmental Protection Agency (EPA) Office of Inspector General
            (OIG) conducted this audit because of significant increases in Great Lakes Legacy
            Act of 2002 (GLLA) funding. Specifically, our audit objectives were to answer
            the following questions:

               	 Does EPA have adequate internal controls to (a) properly track and
                  distribute GLLA funding, and (b) minimize improper payments?
               	 Do Great Lakes project agreements contain (a) goals and measures
                  that further the goals in the Great Lakes and EPA strategic plans,
                  and (b) mechanisms to hold parties accountable?
                Do the contracts that the Great Lakes National Program uses contain
                  sufficient cost and schedule controls?
                Does EPA ensure that its nonfederal partners can meet their obligations to
                  the Great Lakes National Program?

Background
            Sediment contamination, primarily caused by industrialization in the Midwest,
            has been a problem in the Great Lakes for several decades. Historically, Great
            Lakes stakeholders have pursued sediment remediation through a variety of
            mechanisms, such as enforcement agreements and voluntary partnerships. It has
            been reported that polluted sediment is the largest major source of contaminants
            entering the food chain from Great Lakes rivers and harbors. This includes most
            of the areas of concern designated by the United States and Canada, the parties to
            the Great Lakes Water Quality Agreement. The Great Lakes Water Quality
            Agreement was first signed in 1972 and renewed in 1978. The agreement
            expresses the commitment of each country to restore and maintain the chemical,
            physical, and biological integrity of the Great Lakes Basin Ecosystem. EPA’s
            Great Lakes National Program Office (GLNPO) was established in 1978 to
            oversee U.S. efforts to implement the Great Lakes Water Quality Agreement.

            Congress passed GLLA to expedite the remediation of contaminated sediment
            sites and improve the ability of the United States to meet its commitments under
            the Great Lakes Water Quality Agreement. GLLA established an innovative
            approach to conducting sediment remediation in that it uses partnerships with
            nonfederal sponsors to accomplish the work. Project agreements under these
            partnerships require that the nonfederal sponsor provide a minimum of 35 percent
            of the effort in cash or in-kind contributions to the project.

12-P-0407                                                                                   1
            With the exception of fiscal year (FY) 2010, GLLA funding from Congress has
            increased steadily since funding began in 2004 (table 1).

            Table 1: GLLA funding
                              Appropriated amount
               Fiscal year        (in millions)
                  2004                 $10
                  2005                  22
                  2006                  29
                  2007                  30
                  2008                  35
                  2009                  37
                  2010                  16
                  2011                  50
                  Total               $229
            Source: GLNPO.



            When the program received its first GLLA funding in 2004, it had limited
            resources. In 2004, four GLNPO staff members were assigned to GLLA work.
            Eventually, GLNPO allocated more staff to GLLA work, and in 2011
            approximately 12 staff members were performing GLLA work. Because of
            limited staffing at the beginning of the program, GLNPO’s initial strategy was to
            focus on hiring essential technical staff (engineers and scientists) and to leverage
            the resources of other offices to help administer the program. For example,
            GLNPO did not award its own remediation contracts. Instead, it used existing
            Superfund remediation action contracts to perform GLLA work. GLNPO also did
            not hire financial staff and instead relied on its own technical staff to perform
            financial functions, and in some instances utilized a certified public accountant
            from the Region 5 Office of Counsel to perform required financial work.

            As GLLA work has increased, leveraging resources of other offices has become
            more difficult and detrimental to those offices. For example, according to the
            acting director of GLNPO, GLLA projects began taking up too much capacity of
            the Superfund contracts being utilized, which could cause Superfund to procure
            new contracts more quickly as capacity runs out. The incongruent growth of
            GLNPO resources versus staffing, and the focus on programmatic over financial
            activities, had a major impact on GLNPO’s development of internal controls and
            led to many of the issues we found in our audit.

            Internal controls help government program managers achieve desired results
            through effective stewardship of public resources. Controls comprise the plans,
            methods, and procedures used to meet missions, goals, and objectives and, in
            doing so, support performance-based management. Managers are responsible for
            developing the detailed policies, procedures, and practices to fit their agencies’
            operations, and ensuring they are built into and are an integral part of operations.
            As programs change and as agencies strive to improve operational processes and

12-P-0407                                                                                      2
            implement new technological developments, management must continually assess
            and evaluate its internal controls to assure that they are effective and updated
            when necessary. The Government Accountability Office’s (GAO’s) Standards for
            Internal Control in the Federal Government state that management should ensure
            that skill needs are continually assessed and that the organization is able to obtain
            a workforce that has the required skills that match those necessary to meet
            organizational goals.

Noteworthy Achievements
            Under GLLA, GLNPO has partnered with nonfederal sponsors to clean up areas
            of concern. As of February 2011, it reported completing remediation on
            10 projects, resulting in the remediation of approximately 1,294,000 cubic yards
            of contaminated soil.

            GLNPO expended approximately $175 million and has received approximately
            $121 million in nonfederal match. It has been successful in partnering with both
            state and local governments as well as 32 companies to complete these projects.

Scope and Methodology
            We performed this audit from February 2011 to February 2012 in accordance with
            generally accepted government auditing standards, issued by the Comptroller
            General of the United States. Those standards require that we plan and perform
            the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions based on our audit objectives. We believe that
            the evidence obtained provides a reasonable basis for our findings and
            conclusions based on our audit objectives.

            During our audit, we examined information related to15 GLNPO projects
            (table 2).




12-P-0407                                                                                      3
            Table 2: GLLA projects
              1.   Black Lagoon
              2.   Hog Island
              3.   Ruddiman Creek
              4.   Tannery Bay
              5.   Kinnickinnic River
              6.   Ashtabula River
              7.   Ottawa River
              8.   Grand Calumet River (West Branch/Roxana Marsh)
              9.   St. Louis River
             10.   St. Mary’s River
             11.   Lincoln Park
             12.   Sheboygan River
             13.   Division Street/Muskegon Lake
             14.   Riverview, Detroit
             15.   Waukegan Harbor
            Source: GLNPO.

            To determine whether EPA has adequate internal controls to properly track and
            distribute GLLA funding, we reviewed GLLA appropriations, determined the
            procedures GLNPO used for distributing and tracking funding, and tested key
            procedures related to the process. To determine whether GLNPO has adequate
            controls to minimize improper payments, we identified GLNPO procedures,
            tested the procedures to determine compliance, and interviewed GLNPO project
            officers.

            With regard to whether Great Lakes project agreements contain (a) goals and
            measures that further the goals in the Great Lakes and EPA strategic plans, and
            (b) mechanisms to hold parties accountable, we reviewed the Great Lakes and
            EPA strategic plans. We also reviewed the project agreements and Office of
            Management and Budget (OMB) Circular A-11, and interviewed GLNPO
            management.

            To examine whether the Great Lakes National Program uses contracts that contain
            sufficient cost and schedule controls, we reviewed current GLNPO contracts and
            examined the contract type of each contract. We also examined solicitations for
            contracts in process during our audit, and interviewed both GLNPO management
            and regional contracting officers regarding the structure of these new contracts.

            To determine whether EPA ensures that its nonfederal partners can meet their
            obligations to the Great Lakes National Program, we reviewed the requirements
            of the project agreements. We interviewed GLNPO management and staff
            associated with performing final accounting procedures to determine the
            procedures performed and the associated documentation.


12-P-0407                                                                                     4
            We reviewed documents EPA completed in compliance with the Federal
            Managers’ Financial Integrity Act, including the Office of Administration and
            Resources Management’s Fiscal Years 2010 and 2011 Federal Managers’
            Financial Integrity Act Assurance Letters. EPA did not identify internal control
            weaknesses directly related to our audit objectives.

            Prior Audit Coverage

            EPA OIG Report No. 09-P-0231, EPA Needs a Cohesive Plan to Clean Up the
            Great Lakes Areas of Concern, issued September 14, 2009; and EPA OIG Report
            No. 2006-P-00016, EPA Can Better Implement Its Strategy for Managing
            Contaminated Sediments, issued March 15, 2006, were the only previous audits
            relating to GLNPO. However, the recommendations cited in those reports were
            not relevant to the objectives of this audit.




12-P-0407                                                                                      5
                                        Chapter 2

            EPA Can Improve Internal Controls Over 

              Great Lakes Legacy Act Payments 

               GLNPO project officers did not timely forward Legacy Act project agreements so
               that accounts receivable could be established, did not adequately document their
               reviews of contract invoices, and did not track or record in-kind contributions.
               EPA policies specify the procedures to ensure the timely recording of accounts
               receivable and the review of contractor invoices. GLNPO was unaware of existing
               accounts receivable and contract management policies, and EPA does not have a
               policy on accounting for in-kind contributions. When policies and procedures are
               either not in place or not followed, the risk of funds mismanagement, funds not
               being collected, or improper payments being made is increased.

GLNPO Did Not Timely Forward Project Agreements
               Chapter 9 of EPA’s Resources Management Directives System (RMDS) 2540-9­
               P1 requires program offices to forward legal agreements to the appropriate EPA
               finance center within 5 business days of an agreement’s effective date. EPA’s
               Cincinnati Finance Center (CFC) is responsible for preparing bills and receiving
               payments for nonjudicial accounts receivable. The finance center establishes the
               accounts receivable upon its receipt of the legal documents from EPA program
               offices. We found that GLNPO project officers did not timely forward to CFC the
               GLLA project agreements for any of the five projects we reviewed that required
               nonfederal sponsor cash payments on specific dates. As a result, CFC could not
               take actions, such as establishing and billing for accounts receivable, for
               $11,645,590 in cash payments required in the five project agreements (table 3).

            Table 3: Project agreements requiring nonfederal sponsor cash payments not
            forwarded timely to CFC
                                                   Date                   Number
                                                  project     Date CFC    of days       Total cash
             Project                Effective   agreement     received     late to       payment
             agreement                date      due to CFC   agreement      CFC          amounts
             Hog Island            06/13/2005   06/20/2005   11/01/2006           499    $1,625,590
             Tannery Bay           07/11/2006   07/18/2006   11/01/2006           106     2,620,000
             Kinnickinnic River    07/14/2008   07/21/2008   01/13/2009           176     2,000,000
             Lincoln Park          12/29/2010   01/05/2011   06/13/2011           159     5,000,000
             Sheboygan River       12/29/2010   01/05/2011   01/13/2011            8       400,000
                                                                          Total         $11,645,590
            Source: OIG analysis of EPA data.




12-P-0407                                                                                        6
            The project agreements for the other 10 GLLA projects did not identify specific
            dates or amounts of cash contributions.

            GLNPO project officers did not timely provide the project agreements to CFC
            because management was not aware of EPA’s requirement to provide the signed
            project agreements to CFC within 5 business days of an agreement’s effective
            date. Instead of providing the project agreements to CFC within 5 days of an
            agreement’s effective date, GLNPO relied on its individual project managers to
            determine when billings to nonfederal sponsors should occur. When GLNPO
            project officers do not provide agreements to CFC timely, CFC cannot establish
            receivables timely, management does not have accurate data to make decisions,
            and collections of cash payments may be delayed. We found that for the 5
            projects, EPA received all the collections from the nonfederal sponsors from 27 to
            188 days after the due dates specified in the project agreements (table 4).

            Table 4: Collections received for project agreements requiring nonfederal
            sponsor cash payments
                                          Collection due           Date           Number of
                                             date per           collection         calendar           Cash
                    Project name           agreement             received         days late          amount
             Hog Island                      07/13/2005         09/26/2005             75             $719,500
                                             10/01/2005         12/19/2005             79               706,000
                                             10/01/2005         04/07/2006            188               200,090
             Tannery Bay                     08/11/2006         10/23/2006             73               460,000
                                             09/15/2006         11/15/2006             61             1,560,000
                                                         a
                                            12/06/2006          01/02/2007             27               600,000
             Kinnickinnic River              01/01/2009         02/10/2009             40             2,000,000
                                                         b
             Lincoln Park                   02/28/2010              N/A               N/A                    N/A
                                             03/01/2011         07/13/2011            134             5,000,000
             Sheboygan River                 01/03/2011         01/31/2011             28               100,000
                                             01/03/2011         02/18/2011             46               100,000
                                             01/03/2011         03/15/2011             71               100,000
                                             01/03/2011         03/21/2011             77               100,000
                                                                              Total                $11,645,590
            Source: OIG analysis of EPA data.

               Note: Reflects all amounts due for the 5 project agreements as of July 18, 2011.
                a
                    The project agreement required the nonfederal sponsor to make a $600,000 payment upon
                    receipt of an invoice accompanied by documentation from GLNPO's contractor in an amount
                    greater than or equal to $600,000. We determined that by November 6, 2006, EPA had paid
                    contractor costs over $600,000; therefore, billings should have occurred by this date. We
                    allowed 30 days for receipt of the collection in determining the number of days late.
               b
                     EPA/GLNPO did not invoice the nonfederal sponsor for the $190,000 specified in the
                    agreement. When GLNPO sent the two Lincoln Park project agreements to CFC, the project
                    officer told CFC not to bill the $190,000 because the amount was included in the $5 million.



12-P-0407                                                                                                     7
Project Officers Do Not Document Contractor Invoice Reviews
            GLNPO project officers act as the work assignment managers (WAMs) for GLLA
            projects and have primary responsibility for reviewing monthly contract invoices.
            Interim Policy Notice 10-04, Section 11.2 Revision of EPA’s Contracts
            Management Manual, contains WAM responsibilities, procedures, and
            instructions for the processing of contract invoices (table 5). The manual requires
            WAMs to maintain documentation necessary to demonstrate that they conducted
            the invoice reviews and to note the elements of the invoices they reviewed.

            Table 5: Work assignment manager responsibilities
                                                                                   WAM level of
             Control feature                                                       responsibility
             Monthly invoice reviews to verify:
                 Billed hours were worked by qualified personnel at the labor
                    categories charged
                 Other direct costs are in accordance with contract                  Primary
                    requirements
                 Travel was accomplished and in accordance with contract
                    requirements
                 Invoiced costs correlate to Monthly Progress Reports
             Ensure quantities invoiced against delivery schedule and confirm
                                                                                      Primary
             receipt
             Determine whether to suspend invoiced costs                              Primary
             Document the file, for example:
                 Ensure invoice contains sufficient explanation of billed costs
                 Maintain history of invoices submitted, payments                    Primary
                   accomplished, discounts taken, suspensions, disallowances,
                   and refunds against the contract
             Ensure subcontract costs are in accordance with contract
                                                                                    Secondary
             requirements
            Source: EPA Contracts Management Manual.


            The Interim Policy Notice provides a checklist to assist WAMs with their invoice
            reviews, and states that use of the checklist constitutes adequate file
            documentation in support of a complete and comprehensive invoice review.
            When the checklist is not used, the policy requires additional documentation be
            maintained. According to the interim policy, if the project officer, or work
            assignment manager, elects not to use the checklist, then other documentation,
            such as spreadsheets, tabulations, notes, etc., must be used to demonstrate that
            invoices were properly reviewed, noting what was reviewed on each invoice.

            Upon completion of invoice reviews, the Interim Policy Notice instructs WAMs
            to provide the Superfund project officer with written invoice approval, either via
            the checklist or other documentation. All eight WAMs that we interviewed
            reported performing the required invoice reviews. However, those WAMs did not
            use the invoice review checklist or maintain the type of documentation required to

12-P-0407                                                                                       8
            demonstrate that invoices were properly reviewed. Instead of using the checklist,
            WAMs used the two-way memo created by EPA to document a WAM’s review
            and payment approval of a monthly invoice. While EPA’s two-way memo does
            document a WAM’s review and approval of an invoice, it does not provide the
            required support or serve as adequate file documentation of what and how the
            invoice was reviewed. Further, three of the eight WAMs interviewed did not
            always send EPA’s two-way memo that certified their invoice review and
            payment approval to the Superfund project officer. One of the three WAMs stated
            that although he was in agreement with all of the invoices, he did not provide a
            formal e-mail approval to the Superfund project officer.

            The WAMs were unaware of the Interim Policy Notice’s requirement to maintain
            documentary evidence to support their monthly invoice reviews and to approve
            each payment. Some WAMs had not received the contract officer representative
            training in several years. GLNPO did not have any procedures to ensure or verify
            that WAMs were performing adequate invoice reviews, approving the payments,
            or maintaining the required support for the invoice reviews. The growth and
            development of the GLNPO program, as described in the report background,
            contributed to the lack of procedures.

            When WAMs do not adequately document their invoice reviews or submit the
            required payment approvals, EPA has limited assurance that the costs invoiced on
            the GLLA projects are reasonable and allowable. In addition, management cannot
            determine the adequacy of the reviews performed.

EPA Does Not Record or Track GLLA In-Kind Contributions
            EPA does not have a policy to address the recording of in-kind services
            nonfederal sponsors provide. GAO’s Standards for Internal Control in the
            Federal Government require that (1) transactions be promptly recorded to
            maintain their relevance and value to management in controlling operations and
            making decisions; and (2) transactions and other significant events be clearly
            documented, with the documentation readily available for examination. In-kind
            services represent a financial transaction that should be recorded in EPA’s
            accounting system.

            EPA does not track or record the in-kind contributions it receives from GLLA
            nonfederal sponsors in its accounting system because it does not have associated
            policies and procedures. The nonfederal sponsors typically provide in-kind
            services such as construction oversight, materials, design or engineering services,
            payroll, travel costs, and laboratory services. GLNPO does maintain a spreadsheet
            that incorporates nonfederal sponsor costs along with the EPA costs incurred for
            each project.

            If the accounting system does not reflect the total cost of the program, EPA
            management may make decisions or projections based on information that is not


12-P-0407                                                                                    9
            accurate or complete. In addition, EPA may not report the total costs of projects
            accurately or timely. The actual and estimated in-kind contributions for the
            15 GLLA projects examined are significant, totaling $96 million of the total
            $121 million in nonfederal sponsor costs for the projects (table 6).

            Table 6: Actual and estimated in-kind contribution by project
                                                          Nonfederal           Potential
                                                       sponsor’s share          in-kind            Actual/
                         Project name                  of project costs      contributions        estimated
             Black Lagoon                                     $3,111,131         $3,111,131         Actual
             Hog Island                                        2,205,000            579,410       Estimated
             Ruddiman Creek                                    4,939,436            593,641         Actual
             Tannery Bay                                       3,261,033            641,033         Actual
             Kinnickinnic River                                8,400,000          6,400,000       Estimated
             Ashtabula River                                  30,500,000         30,500,000       Estimated
             Ottawa River                                     24,500,000         24,500,000       Estimated
             St. Louis River                                   1,500,000          1,500,000       Estimated
             St. Mary’s River                                  1,600,000          1,600,000       Estimated
             Lincoln Park                                      8,610,000          2,110,000       Estimated
                                                                                           a
             Sheboygan River                                     400,000                    0     Estimated
             Division Street/Muskegon Lake                     4,200,000          4,200,000       Estimated
             Riverview, Detroit                                  175,000            130,509       Estimated
             Waukegan Harbor                                     140,000              77,432      Estimated
             Grand Calumet River
             (West Branch/Roxana Marsh)b                      27,833,750         19,923,750       Estimated
             Total                                         $121,375,350         $95,866,906
            Source: OIG analysis of EPA data.

                 a
                     The nonfederal sponsor’s share of the remedial action for Sheboygan River will be
                     100 percent in-kind contributions. Because remedial action work will not begin until 2012,
                     the potential dollar amount is unknown at this time.
                 b
                     The GLNPO project agreement does not specify the amounts to be received as in-kind and
                     cash. The potential amounts represent the unpaid portion of the nonfederal sponsor’s
                     share.


            The projects with actual in-kind contributions listed in table 6 represent closed
            Legacy Act projects for which GLNPO has verified the total costs of the projects
            and the nonfederal sponsors’ in-kind contributions. Projects containing estimated
            amounts for in-kind contributions are ongoing. Therefore, the in-kind
            contributions represent the potential amount GLNPO may receive from the
            nonfederal sponsors. The estimated contributions take into account the total
            nonfederal sponsor cost share for the project, which is documented in the project
            agreements, and any cash payments previously made by the nonfederal sponsors.




12-P-0407                                                                                                    10
Recommendations
            We recommend that the Regional Administrator, Region 5, direct the Director of
            GLNPO to:

                   1.	 Establish a procedure to forward signed GLLA project agreements to
                       CFC within 5 days of an agreement’s effective date as required by
                       RMDS 2540, Chapter 9, and notify project officers of the procedure.

                   2.	 Implement a procedure for holding project officers accountable for the
                       WAM’s responsibilities regarding the invoice review process specified
                       in EPA’s Contract Management Manual.

            We recommend that the Chief Financial Officer, in coordination with the Director
            of GLNPO:

                   3. 	 Develop and implement policies and procedures to consistently record
                        and track in-kind contributions from private- and public-sector
                        nonfederal sponsors for all GLLA projects.

Agency Response and OIG Evaluation
            In response to recommendations 1 and 2, GLNPO developed two operating
            procedures:

               	 Review and Acceptance of Both Monetary and In-Kind Match
                  Contributions by Non federal Sponsors (NFS) under the Great
                  Lakes Legacy Act
               	 Review, Acceptance, and Documentation of Task Order and Work
                  Assignment Monthly Progress Reports and Invoices by GLNPO
                  CORs

            The revised operating procedures address the finding and recommendations.

            In response to recommendation 3, the Office of the Chief Financial Officer
            will convene an Agency workgroup to develop and implement policies
            and procedures to consistently record and track in-kind contributions from
            private- and public-sector nonfederal sponsors for all GLLA projects.
            These policies and procedures will be completed by December 31, 2012.
            The Agency’s actions, when implemented, will address the
            recommendation.




12-P-0407                                                                                11
                                  Chapter 3

            Project Agreements Can Be Improved 

                  to Increase Accountability 

            Although GLLA project agreements have goals and measures to further the Great
            Lakes and EPA strategic plan goals, GLLA project agreements do not always
            include payment dates, and project officers do not ensure that nonfederal sponsors
            submit required progress reports. Management is responsible for developing
            policies, procedures, and practices to ensure that internal controls are built into
            their operations. As the GLLA program developed, GLNPO focused on the
            technical aspects of projects more than it did on administrative responsibilities.
            Without additional internal controls to increase accountability, the Agency is
            vulnerable to not receiving required cost-share payments and not being able to
            support its reported performance.

GLLA Projects Align With EPA Strategic Plan Goals
            GLLA projects further EPA’s goal to remediate a cumulative total of 8 million
            cubic yards of contaminated sediment in the Great Lakes. GLLA project
            agreements contain goals and measures (e.g., sediment removal amounts) that tie
            to EPA’s strategic plan, and GLNPO has instituted a pre-project-approval process
            that ensures that each GLLA project furthers EPA’s strategic plan. We sampled
            five project files, and all five contained pre-project-agreement documents that
            illustrated GLNPO’s efforts to ensure that each project would reduce risks to
            human health and restore the Great Lakes ecosystem. GLNPO has established a
            technical review committee to review each proposed project to ensure that
            selected projects reduce risks to human health and restore the ecosystem by
            reducing contaminated sediments.

Project Agreements Are Missing Payment Dates
            When cash payments were anticipated, GLNPO did not always include a payment
            due date or amounts of the cash payments in the project agreements. Of the
            15 GLLA projects we examined, the agreements for 10 projects did not contain
            cash payment amounts or due dates. However, 3 of the 10 projects have received
            cash payments from the nonfederal sponsor. These three project agreement’s
            payment terms were not specific enough to allow for accounts receivable to be
            established. For example:

               	 The project agreement for Grand Calumet River (West Branch/Roxana
                  Marsh) calls for periodic billings, with no indication of how much of the
                  35 percent match ($27.8 million) is expected to be cash versus in-kind


12-P-0407                                                                                   12
                   contributions. The project officer periodically reviews how much money
                   the contractor has expended and how much is left to be expended to
                   determine when more money is needed from the nonfederal sponsor. The
                   project officer asserted that the majority of the match would be cash
                   contributions, and approximately $7.4 million has been received to date.

            All GLLA projects have a 35 percent match requirement from the nonfederal
            sponsor, which can be cash or in-kind services. EPA RMDS 2540-9-P1, Billing
            and Collecting, states that a receivable should be recognized when a federal entity
            establishes a claim to cash or other assets against other entities, either based on
            legal provisions, such as a payment due date, or goods or services provided. If the
            exact amount is unknown, a reasonable estimate is to be made.

            GLNPO management stated that the program modeled GLLA project agreements
            after U.S. Army Corps of Engineers project agreements. However, the GLLA
            project agreements are not consistently modeled on those of the Corps, as the
            Corps model project agreement shows a required monetary contribution and
            options for the timing of the sponsor’s payment, and some of the GLLA project
            agreements do not.

            Without a reasonable estimate of the amount of cash payments and their due
            dates, the finance center cannot automatically initiate the accounts receivable
            process; the finance center must rely on the GLLA project officers to notify it that
            cash payments are due. Without accurate accounts receivable, nonfederal sponsor
            cost shares may not be received, which could signify that the nonfederal sponsor
            cannot meet its cost share obligation. According to the Region 5 Office of
            Regional Counsel, if the nonfederal sponsor cost share is not received, work on
            the project in question would stop, potentially decreasing public health benefits
            and wasting federal funds.

GLNPO Is Not Receiving Required Progress Reports
            Project officers do not always receive required progress reports from the
            nonfederal sponsors. Of the 11 project agreements we sampled for progress
            reports, 6 required the nonfederal sponsor to submit quarterly or periodic progress
            reports. However, for all six of these projects, none of the project officers
            collected written progress reports from the nonfederal sponsor.

            The progress report requirements included in each project agreement vary for
            each project. The requirements range from a general requirement for a report with
            no details of what the report should include, to requirements that specify inclusion
            of a summary of work, a current schedule of work and milestones, a discussion of
            costs incurred to date, and the percentage of the nonfederal sponsor’s costs paid to
            date. Regardless of the level of detail specified in project agreements, the
            respective project officers asserted that they frequently received oral reports from
            the nonfederal sponsors and therefore did not require written progress reports.


12-P-0407                                                                                    13
            This project officer practice creates an environment of limited access to project
            data. When the project officer is unavailable, orally reported project data are also
            unavailable, and continued monitoring in the absence of the project officer may
            be difficult. The Agency also potentially misses an opportunity to improve
            efficiencies and prevent waste when historical project progress data are not
            obtained and stored.

Recommendation
            We recommend that the Regional Administrator, Region 5, direct the Director of
            GLNPO to:

                   4.	 Develop and implement policies and procedures that will result in
                       consistent project agreements with improved accountability. The
                       policies and procedures should address:

                           a.	 Inclusion of specific payment due dates.
                           b.	 Collection of written nonfederal sponsor status reports at least
                               quarterly.

Agency Response and OIG Evaluation

            To address the recommendation, EPA developed a new model project agreement.
            The revisions to the project agreement addressed the finding and
            recommendation.




12-P-0407                                                                                     14
                                  Chapter 4

       GLNPO Has Improved Contract Cost Controls
            GLNPO has awarded new contracts that will allow it to increase competition and
            fixed-price contracting. The Federal Acquisition Regulation (FAR) notes that the
            government incurs additional cost risks and takes on the additional burden of
            managing the contractor’s costs in cost-reimbursement contracts. Further, in 2009,
            OMB and the President issued documents encouraging federal entities to utilize
            more fixed-price contracting and competition. As GLNPO began the process of
            awarding its own contracts, it decided, in coordination with Region 5’s
            contracting office, to use a contract type and structure that would increase
            competition and the use of fixed-price task orders. These new GLNPO contracts
            incentivize contractors to control costs and perform effectively, and minimize
            GLNPO’s own administrative burden.

Fixed-Price Contracts Help Programs Control Costs and Perform
Efficiently
            According to the FAR, when the government selects a cost-reimbursement
            contract, the government incurs additional cost risks and takes on the additional
            burden of managing the contractor’s costs. The FAR notes that past experience
            provides a basis for firmer pricing, and contracting officers should avoid
            protracted use of cost-reimbursement or time-and-materials contracts. The FAR
            also suggests that contracting officers should consider whether a portion of the
            contract can be established on a firm-fixed-price basis if the entire contract cannot
            be firm-fixed-price.

            Bolstering the FAR’s message, the March 2009 Presidential memorandum states
            that excessive reliance by executive agencies on sole-source contracts (or
            contracts with a limited number of sources) and cost-reimbursement contracts
            creates a risk that taxpayer funds will be spent on contracts that are wasteful,
            inefficient, subject to misuse, or otherwise not well designed to serve the needs of
            the federal government or the interests of the American taxpayer. The
            memorandum states that there shall be a preference for fixed-price-type contracts.
            The October 2009 OMB memorandum, Increasing Competition and Structuring
            Contracts for the Best Results, stresses that fixed-price contracts provide greater
            incentive than cost-reimbursement contracts for the contractor to control costs and
            perform efficiently, and that Agencies should examine their use of
            noncompetitive contracts. Noncompetitive contracts place agencies in the position
            of having to negotiate contracts without the benefit of a direct market mechanism
            to help establish pricing. Further, a December 2009 OMB document, Saving
            Money and Improving Government, warns that cost-reimbursement and time-and­
            materials contracts provide limited incentive for the contractor to control costs
            and maximize value.

12-P-0407                                                                                    15
GLNPO Is Increasing Competition and Fixed-Price Contracting
            GLNPO has historically used existing level-of-effort, cost-reimbursement
            Superfund contracts to accomplish its work. However, as GLNPO has grown over
            the years, it became necessary to award its own contracts to accomplish the work.
            GLNPO awarded three new contracts for construction in August and September
            2011. These contracts are indefinite delivery/indefinite quantity; however,
            GLNPO plans to issue mostly fixed-price task orders under these contracts. The
            contracting officer stated that he plans to document the contract file each time a
            task order other than fixed-price is awarded. However, there currently are no
            procedures in place to ensure that the contracting officer documents the rationale
            for not using fixed-price task orders. GLNPO plans to compete future task orders
            among the three construction contractors. This increased competition will help
            ensure that GLNPO receives a fair and reasonable price for the services.

            By instituting fixed-price components in its contracts, GLNPO is using contracts
            that contain better cost and schedule controls that reduce risk to the government.
            According to the Federal Acquisition Regulations, firm-fixed-price task orders
            provide for a price that is not subject to adjustment on the basis of the contractor’s
            cost experience in performing the contract. This contract type places upon the
            contractor maximum risk and full responsibility for all costs and resulting profit
            or loss. It provides maximum incentive for the contractor to control costs and
            perform effectively, and imposes a minimum administrative burden upon the
            contracting parties. Additionally, GLNPO’s decision to compete task orders
            allows it to realize direct market benefits in establishing the task order price.

Recommendation
            We recommend that the Regional Administrator, Region 5, direct the Acquisition
            and Assistance Branch Chief to:

                   5. 	 Implement procedures to monitor and ensure that the rationale for not
                        using fixed-price task orders under the new GLNPO contracts is
                        documented.

Agency Response and OIG Evaluation
            In response to the recommendation, the Region 5 Acquisition Section will
            use fixed-price task orders to the fullest extent possible. There may be
            certain circumstances where fixed-price task orders are not appropriate.
            Task orders that cannot be awarded on a fixed-price basis will be
            thoroughly documented, with input from GLNPO, by the Acquisition Staff
            before the task order is issued. The Contracting Officer will be responsible
            for this determination. The Agency’s action addressed the
            recommendation.


12-P-0407                                                                                     16
                                   Chapter 5

            EPA Should Develop Internal Controls to 

             Better Ensure Its Nonfederal Sponsors 

                     Meet Their Obligations 

             GLNPO has not timely completed the final accountings required for GLLA
             projects, does not keep evidence supporting procedures performed and rationale
             for allowed and disallowed costs, does not verify the financial capability of the
             nonfederal sponsor prior to entering into an agreement, and does not verify that
             the nonfederal sponsor has an adequate accounting system. GAO’s Standards for
             Internal Control in the Federal Government require management to develop
             policies and procedures that lead to effective and efficient management of agency
             programs. GLNPO does not have policies and procedures regarding the timing of,
             procedures for, or documentation of final accounting; determining the financial
             capability of the nonfederal sponsors; or verifying the adequacy of nonfederal
             sponsor accounting systems. In the absence of policies and procedures,
             management has limited assurance that the costs submitted by nonfederal
             sponsors are reasonable and allowable.

Internal Controls Are Required
             GAO’s Standards for Internal Control in the Federal Government states that
             management is responsible for developing the detailed policies, procedures, and
             practices to fit agency operations, and ensuring that the policies, procedures, and
             practices are an integral part of operations. GLLA project agreements require that
             a final accounting be performed at the end of each project to ensure that the
             nonfederal sponsor has contributed its cost share in accordance with the project
             agreement. Additionally, the GLLA project agreements require the nonfederal
             sponsor to have an adequate accounting system. Without an accounting system
             that tracks cost by project and by individual cost element, nonfederal costs
             applicable to the project cannot be verified during the final accounting.

GLNPO Should Improve Final Accounting
             GLNPO has completed only 3 final accountings for the 10 projects reported as
             complete. Some have taken over 4 ½ years from the time of final payment on the
             project to the date the final accounting was completed (table 7).




12-P-0407                                                                                    17
Table 7: Projects completed with a final accounting
                                            Last                    Months from      Months from
                                          payment     Date of final project end to last payment to
      Project        Project end date       date      accounting final accounting final accounting
 Black Lagoon         November 2005      07/20/2006   03/11/2011      5 yrs., 4 mos.   4 yrs., 8 mos.
 Ruddiman Creek          May 2006        08/23/2006   03/29/2011     4 yrs., 10 mos.   4 yrs., 7 mos.
 Tannery Bay            August 2007      06/04/2008   10/30/ 2008      1 yr., 2 mos.          4 mos.
                                                      Average         3 yrs., 9 mos.   3 yrs., 2 mos.
Source: OIG analysis of EPA data.


                 In addition to the three completed final accountings, there are two other projects
                 that GLNPO has listed as complete for which no payments have been made in
                 over a year, and the final accounting has not been completed (table 8). Even
                 though GLNPO considers five more projects as complete, the projects either have
                 small amounts of work to be performed or have costs that need to be finalized
                 before the final accounting can take place.

Table 8: Completed projects with no final accounting
                                        Last payment Months from project   Months from last
      Project       Project end date        date     end to August 2011 payment to August 2011
 Hog Island          November 2006       03/04/2009         4 yrs., 9 mos.             2 yrs., 5 mos.
 St. Louis River     December 2010       06/14/2010                 8 mos.              1 yr., 2 mos.
Source: OIG analysis of EPA data.

                 GLNPO is not adequately documenting the procedures performed during the final
                 accounting, nor is it documenting the basis for disallowing or allowing costs
                 submitted by the nonfederal sponsor. For the three completed final accounting,
                 there was no documentation of what costs were reviewed, how the costs were
                 reviewed, and why costs were allowed or disallowed. For example, there was no
                 evidence that indirect rates were reviewed or verified. The GLNPO staff member
                 performing the final accounting told us that he did not verify the indirect rates.
                 Based on the records kept, an independent third party would have difficulty
                 determining what procedures were performed and whether those procedures were
                 adequate.

GLNPO Is Not Verifying Financial Capability or Accounting System
Adequacy
                 GLNPO is not verifying that the nonfederal sponsor has the financial capability to
                 meet project agreement obligations or the ability to account for, track, and report
                 project costs. Nonfederal sponsors agree to provide millions of dollars of in-kind
                 services and cash as part of a GLLA cost-sharing agreement. Thus, before
                 entering into an agreement, it would be prudent for EPA to verify that the
                 nonfederal sponsor had the financial resources to meet its obligations in the
                 project agreement. Additionally, it would be prudent to verify in advance whether


12-P-0407                                                                                               18
            the nonfederal sponsor maintains an accounting system that tracks and reports
            costs by project. GLNPO did not perform financial capability reviews and did not
            verify that the nonfederal sponsor maintained an adequate accounting system that
            could report costs by project. Discussions with GLNPO management confirmed
            that these reviews were not performed.

Lack of Policies and Procedures Leave GLNPO Vulnerable
            GLNPO has not emphasized the completion and documentation of final
            accounting. This is largely because the program began with limited resources, and
            management was unsure about the longevity of the program. Therefore, in making
            decisions regarding policies and procedures and staffing, management
            concentrated on programmatic mission issues instead of financial and
            administrative tasks. As a result, GLNPO does not have policies and procedures
            regarding the timing of final accounting or the procedures to be performed and
            documentation to be retained. Without adequate policies and procedures,
            management cannot meet its goals for accountability and effective and efficient
            use of resources. Management also has limited assurance that the nonfederal
            sponsors have met the cost share for the completed projects. Additionally,
            because the final accounting was not being done timely, GLNPO and EPA risk
            that documentation may be lost or that EPA or nonfederal sponsor staff with
            institutional knowledge of the projects and costs incurred may leave, which would
            make completion of the final accounting difficult.

            Additionally, the final accounting is not being completed timely because GLNPO
            does not verify actual in-kind contributions or request the source documentation
            to support the in-kind contributions from nonfederal sponsors until after the
            completion of GLLA projects. GLNPO management noted that it was sometimes
            an “arduous” task to review the many boxes of invoices and determine the value
            of the in-kind services. One project officer reported receiving thousands of
            documents after completion of a project. Requesting and receiving documentation
            on an interim basis could improve the overall final accounting process.

            GLNPO also does not have policies and procedures for verifying the financial
            capability and accounting system adequacy of nonfederal sponsors. Without
            verifying the financial capability, GLNPO is entering into project agreements
            without reasonable assurance that the nonfederal sponsor can meet the
            commitments. Moreover, by not verifying the adequacy of the nonfederal
            sponsor’s accounting system, GLNPO is vulnerable to fraud, waste, and abuse in
            that it does not have reasonable assurance that costs submitted as in-kind costs are
            associated with the project and are reasonable and allowable.




12-P-0407                                                                                    19
Recommendations
            We recommend that the Regional Administrator, Region 5, direct the Director of
            GLNPO to:

                   6.	 Develop and implement policies and procedures on how to complete
                       final accounting of project costs and when the final accounting is to be
                       completed.

                   7.	 Develop and implement policies and procedures to review nonfederal
                       sponsor in-kind costs on a periodic basis during the project.

                   8.	 Develop and implement policies and procedures to verify the financial
                       capability of nonfederal sponsors and the adequacy of nonfederal
                       sponsor accounting systems prior to entering into project agreements.

Agency Response and OIG Evaluation

            In response to recommendations 6 and 7, GLNPO developed two standard
            operating procedures:

               	 Great Lakes Legacy Act (GLLA) Project Agreement (PA) Closeout
               	 Review and Acceptance of Both Monetary and In-Kind Match
                  Contributions by Nonfederal Sponsors (NFS) Under the Great Lakes
                  Legacy Act

            In response to recommendation 8, GLNPO modified its project agreement to
            include specific language that addresses certification of financial capability, audit
            requirements, and recordkeeping.

            The procedures and revised project agreement address the findings and
            recommendations.




12-P-0407                                                                                     20
                              Status of Recommendations and
                                Potential Monetary Benefits
                                                RECOMMENDATIONS                                                     POTENTIAL MONETARY
                                                                                                                     BENEFITS (in $000s)

                                                                                                        Planned
Rec.    Page                                                                                           Completion   Claimed    Agreed-To
No.      No.                         Subject                       Status1      Action Official           Date      Amount      Amount
 1       11      Direct the Director of GLNPO to establish a         C       Regional Administrator,    3/8/2012
                 procedure to forward signed GLLA project                          Region 5
                 agreements to CFC within 5 days of an
                 agreement's effective date as required by
                 RMDS 2540, Chapter 9, and notify project
                 officers of the procedure.
 2       11      Direct the Director of GLNPO to implement a         C       Regional Administrator,    3/8/2012
                 procedure for holding project officers                            Region 5
                 accountable for the WAM’s responsibilities
                 regarding the invoice review process specified
                 in EPA’s Contract Management Manual.
 3       11      Coordinate with the Director of GLNPO to            O       Chief Financial Officer   12/30/2012
                 develop and implement policies and
                 procedures to consistently record and track
                 in-kind contributions from private- and
                 public-sector nonfederal sponsors for all
                 GLLA projects.
 4       14      Direct the Director of GLNPO to develop and         C       Regional Administrator,    3/8/2012
                 implement policies and procedures that will                       Region 5
                 result in consistent project agreements with
                 improved accountability. The policies and
                 procedures should address:
                   a. Inclusion of specific payment due dates.
                   b. Collection of written nonfederal sponsor
                      status reports at least quarterly.
 5       16      Direct the Acquisition and Assistance Branch        C       Regional Administrator,    3/8/2012
                 Chief to implement procedures to monitor and                      Region 5
                 ensure that the rationale for not using fixed-
                 price task orders under the new GLNPO
                 contracts is documented.
 6       20      Direct the Director of GLNPO to develop and         C       Regional Administrator,    3/8/2012
                 implement policies and procedures on how to                       Region 5
                 complete final accounting of project costs and
                 when the final accounting is to be completed.
 7       20      Direct the Director of GLNPO to develop and         C       Regional Administrator,    3/8/2012
                 implement policies and procedures to review                       Region 5
                 nonfederal sponsor in-kind costs on a periodic
                 basis during the project.
 8       20      Direct the Director of GLNPO to develop and         C       Regional Administrator,    3/8/2012
                 implement policies and procedures to verify                       Region 5
                 the financial capability of nonfederal sponsors
                 and the adequacy of nonfederal partner
                 accounting systems prior to entering into
                 project agreements.




  O = recommendation is open with agreed-to corrective actions pending
  C = recommendation is closed with all agreed-to actions completed
  U = recommendation is unresolved with resolution efforts in progress



12-P-0407                                                                                                                            21
                                                                                    Appendix A

                                 Agency Response

                                          March 8, 2012

MEMORANDUM

SUBJECT:	 Response of the Great Lakes National Program Office (GLNPO) to Office
          Of Inspector General (OIG) Draft Audit Report: Great Lakes National
          Program Should Improve Internal Controls to Ensure Effective Legacy
          Act Operations; Project No. OA-FY11-O153

FROM: 	         Susan Hedman
                Great Lakes National Program Manager

TO:	            Melissa M. Heist
                Assistant Inspector General for Audit

We have reviewed your February 9, 2012 Draft Audit Report that included findings and
recommendations concerning the Great Lakes Legacy Act program. Concurrent with the
initiation of the OIG audit, GLNPO began the process of establishing Standard Operating
Procedures and other mechanisms to address the types of issues identified in your draft report.
Our discussions with OIG staff in connection with your audit helped us to complete and
implement these new procedures, starting in the fall of 2011.

Specifically:

We have finalized and implemented SOPs to address Recommendations 1, 2, 6, and 7 in the
February 9th Draft Audit Report:

       SOP to Address Recommendation 1: Review and Acceptance of Both Monetary
       and In-Kind Match Contributions by Non federal Sponsors (NFS) under the Great
       Lakes Legacy Act,

       SOP to Address Recommendation 2: Review, Acceptance, and Documentation of
       Task Order and Work Assignment Monthly Progress Reports and Invoices by
       GLNPO CORs.

       SOP to Address Recommendation 6: Great Lakes Legacy Act (GLLA) Project
       Agreement (PA) Closeout.

       SOP to Address Recommendation 7: Review and Acceptance of Both Monetary
       and In-Kind Match Contributions by Nonfederal Sponsors (NFS) Under the Great
       Lakes Legacy Act.

12-P-0407                                                                                     22
With respect to Recommendation 5 in the Report, please note that, in 2011, three new
remediation contracts were awarded for Great Lakes Legacy Act projects, utilizing fixed-price
features. The Region 5 Acquisition Section will use fixed-price task orders to the fullest extent
possible. There may be certain circumstances where fixed-price task orders are not appropriate.
Task orders that cannot be awarded on a fixed-price basis will be thoroughly documented, with
input from GLNPO, by the Acquisition Staff before the task order is issued. The Contracting
Officer will be responsible for this determination.

With respect to Recommendations 4 and 8, a new model project agreement was completed and
will be utilized for all new projects. The new model project agreement adds very specific
language that addresses certification of financial capability, audit requirements, and
recordkeeping.

Finally, with respect to Recommendation 3, I note that in April, OCFO's Office of Financial
Management will convene an agency workgroup with the Office of Financial Services, Region 5
and the Interagency Agreement Shared Service Center to develop and implement policies and
procedures to consistently record and track in-kind contributions from private- and public-sector
nonfederal sponsors for all GLLA projects. These policies and procedures will be completed by
December 31, 2012.

Again, my thanks to you and your staff for the assistance you provided. Any questions regarding
this response can be directed to Chris Korleski, Great Lakes National Program Office Director, at
312-353-4891, or to me at 312-886-3000.


cc: 	   Cameron Davis, Senior Advisor to the Administrator
        Chris Korleski, Director, Great Lakes National Program Office
        Tinka Hyde, Director, Water Division, U.S. EPA Region 5
        Robert A. Kaplan, Regional Counsel, U.S. EPA Region 5
        Eric Levy, Region 5 Audit Coordinator




12-P-0407                                                                                      23
                                                                               Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Water
Regional Administrator, Region 5
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Acquisition Management, Office of Administration and Resources
       Management
Audit Follow-Up Coordinator, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Region 5
Public Affairs Officer, Region 5
Director, Great Lakes National Program Office




12-P-0407                                                                             24
